TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Reliance on New Procedures Allowed
                  Some False Economic Stimulus Payments
                 to Be Issued and Pose a Continuing Risk of
                  False Refunds Being Issued in the Future



                                       March 25, 2009

                           Reference Number: 2009-10-049




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 25, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Reliance on New Procedures Allowed Some False
                             Economic Stimulus Payments to Be Issued and Pose a Continuing Risk
                             of False Refunds Being Issued in the Future (Audit # 200810032)

 This report presents the results of our review of the Economic Stimulus Program. Our overall
 objective was to evaluate the effectiveness of the Criminal Investigation (CI) Division’s actions
 to prevent the issuance of economic stimulus payments for tax returns identified by the Internal
 Revenue Service (IRS) as claiming false refunds. This audit was conducted as part of Treasury
 Inspector General for Tax Administration’s risk-based audit coverage of the CI Division
 addressing the major management challenge of Erroneous and Improper Payments.

 Impact on the Taxpayer
 As of December 2008, the IRS distributed 119.2 million stimulus payments totaling
 $96.3 billion. However, we identified $1.2 million in false stimulus payments and $16.3 million
 in false refunds that were inappropriately issued due to reliance on new controls that did not
 work effectively. Although the amount of erroneously issued stimulus payments we identified is
 small in relation to the total amount issued, we remain concerned that the existing controls pose a
 risk that false refunds and stimulus payments will be erroneously issued in the future. Allowing
 false stimulus payments or false refunds to be issued reduces the dollars in the United States
 Treasury, which is especially critical in this current economic environment.

 Synopsis
 The Economic Stimulus Act of 2008, signed on February 13, 2008, was passed to energize the
 national economy. The most significant part of the Act is the individual stimulus payment,
                     Reliance on New Procedures Allowed Some False Economic
                    Stimulus Payments to Be Issued and Pose a Continuing Risk of
                              False Refunds Being Issued in the Future


which is a credit for Tax Year 2008. Overall, the payments were estimated using information
reported on Tax Year 2007 tax returns and were scheduled to be issued in 2008 1 so individuals
could benefit from the payments as soon as possible. A stimulus payment will not increase the
amount of tax an individual owes or reduce an individual’s refund for Tax Year 2008.
In January 2008, the CI Division began looking into the impact of the Economic Stimulus
Payment Act legislation on the Questionable Refund Program. 2 CI Division personnel actively
participated in the Service-Wide Executive Steering Committee meetings throughout the
planning process. In addition, CI Division management coordinated with officials in the Wage
and Investment Division and Modernization and Information Technology Services organization
to coordinate procedural changes and revise applicable programming to prevent the issuance of
stimulus payments associated with false returns. Further, the CI Division developed a plan for
key activities to prevent stimulus payments on known false returns and developed ways to
identify potential refund schemes associated with “stimulus-only” returns.
However, the CI Division’s Action Plan did not adequately ensure that stimulus payments were
not issued on known false returns and generally relied on new procedures to prevent payments
associated with false returns from being issued. In Processing Year (PY) 2008, the CI Division
changed the controls and implemented a temporary freeze to hold the issuance of potentially
false refunds. However, our limited testing identified that $1.2 million in stimulus payments and
$16.3 million in false refunds were inappropriately issued because the temporary freeze was
released due to processing delays or systemic deficiencies.
We previously raised concerns with the effectiveness of the controls designed to prevent false
refunds from being erroneously issued. In our first report evaluating the Questionable Refund
Program, we raised concerns that the programmed expiration for the temporary freeze may not
give the IRS sufficient time to verify refunds. 3 In our most recent report, we reported that the
process for freezing taxpayer accounts was complex and confusing, which resulted in the
erroneous issuance of false refunds. 4 If CI Division management does not take adequate steps to
monitor the false refund inventory and ensure false refund returns are referred for resolution
before the temporary freeze expires, we estimate about $117.6 million 5 in false refunds could be
erroneously released over the next 5 years.




1
  Unless otherwise noted, all dates in this report are calendar year.
2
  See Appendix VI for a glossary of terms.
3
  Actions Have Been Taken to Address Deficiencies in the Questionable Refund Program; However, Many Concerns
Remain, With Millions of Dollars at Risk (Reference Number 2007-10-076, dated May 31, 2007).
4
  An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Seasons (Reference
Number 2008-10-172, dated September 22, 2008).
5
  This estimate is based on current dollar values and does not account for changes in volumes of false refund returns,
average refund amounts, improvements in the IRS’ processing of false refunds, or future economic conditions.
                                                                                                                    2
                 Reliance on New Procedures Allowed Some False Economic
                Stimulus Payments to Be Issued and Pose a Continuing Risk of
                          False Refunds Being Issued in the Future


The amount of erroneously issued stimulus payments that we identified is relatively small in
relation to the total stimulus payments issued. However, we remain concerned that the existing
controls pose a risk that false refunds, as well as any stimulus payments associated with potential
future legislation, will be erroneously issued in PY 2009 and beyond.
Finally, we estimate that more than $138 million in stimulus payments on false returns that were
not issued in 2008 may be at risk of being issued during PY 2009 if false returns for these
taxpayers are filed during the 2009 Filing Season (PY 2009). Currently, any stimulus payments
not issued during 2008 that are claimed on potentially false returns filed during the
2009 Filing Season must be referred to the Examination function for resolution. This could place
an extreme burden on the limited resources and other noncompliance priorities of the Wage and
Investment Division during PY 2009. We believe this high volume of returns, coupled with
limited resources and other competing priorities, could cause the IRS to increase the dollar
tolerance of the potentially false stimulus payments referred to Examination function personnel.
As a result, there is an increased risk that some of these stimulus payments could be issued.

Recommendations
We recommended that the Chief, CI, 1) extend the time period for the release of the temporary
freeze on taxpayer accounts to provide CI Division personnel more time to verify potentially
false returns and prevent the issuance of false refunds, and 2) establish a quality review process
that will identify false returns that are not automatically transferred to the Scheme Tracking and
Referral System within the required time period and establish a process to identify false returns
that are not timely referred for resolution.
We also recommended that the Deputy Commissioner for Services and Enforcement seek a
Counsel opinion to determine whether a rebate recovery credit calculated by the IRS requires the
issuance of a statutory notice of deficiency.

Response
IRS management agreed with one of our three recommendations, and disagreed with the
remaining two. IRS management acknowledged the seriousness of the threat posed by refund
fraud and the need for corrective actions. CI Division management stated they remain
committed to identifying and stopping the issuance of false refunds, in support of the IRS’ efforts
to ensure that appropriate systems are in place to not only protect the tax system from
vulnerability, but also to protect taxpayer rights. IRS management agreed with recommendation
three to request a formal written opinion from Chief Counsel to determine whether a rebate
recovery credit calculated by the IRS requires a statutory notice of deficiency.
IRS management did not agree with recommendations one and two regarding extending the time
period for the release of the temporary freeze and establishing a quality review process. The IRS
                                                                                                     3
                   Reliance on New Procedures Allowed Some False Economic
                  Stimulus Payments to Be Issued and Pose a Continuing Risk of
                            False Refunds Being Issued in the Future


stated that in response to the same recommendation in our prior report, 6 the prior manually
intensive process was replaced for PY 2008 with an automated, streamlined process that negates
the need for manual intervention in placing controls on a return once it has been verified as false.
IRS management stated other freeze conditions are used to hold the refund while the automated
referral process is completed and that it continues to monitor and has taken proactive measures to
ensure that procedures are in place to hold the refund until all issues are resolved. In addition,
IRS management disagreed with the need to establish a quality review process, stating that the
Office of Refund Crimes has always taken and continues to take proactive steps to monitor and
refine processes to resolve issues. In FY 2008, system enhancements were implemented to
automate the referral process, and a Business Processing Improvement Team was established to
monitor workload transfer processes, identify issues, and implement solutions.
Finally, IRS management expressed concern about our estimate of the approximate value of false
refunds that could be erroneously released over the next 5 years, stating it is biased in its
assumptions and questioning its accuracy. Management’s complete response to the draft report
is included as Appendix VII.

Office of Audit Comment
We previously reported that the temporary freeze may not give the IRS sufficient time to verify
the refunds and that the freeze process used by the CI Division was complex and confusing. In
response to these findings, the CI Division indicated it would review the data to obtain more
current information pertaining to the wage verification process and implemented new processes
in PY 2008 that would prevent false refunds from being issued until all issues were resolved by
the IRS. However, in spite of the IRS’ new automated process and other freeze conditions
designed to hold the refund, we identified instances where false refunds were erroneously issued
due to the expiration of the temporary freeze within the established time periods. We also
identified control weaknesses in the CI Division’s processes. Regarding the quality review
process, the CI Division outlined several improvements it has made to monitor the referral
process and ensure issues are timely resolved. While we believe some of the actions taken by the
CI Division could be an improvement, these actions will not be implemented until PY 2009. As
a result, we cannot comment on their effectiveness. Finally, because we found that the controls
were not always working as the IRS believed they would, if the IRS does not take corrective
actions, it will continue to be at risk of allowing false refunds to be issued. As such, we remain
concerned that the programmed expiration for the temporary freeze may not give the IRS
sufficient time to verify wages and refer false refund returns for resolution.



6
 An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Seasons (Reference
Number 2008-10-172, dated September 22, 2008).
                                                                                                             4
                  Reliance on New Procedures Allowed Some False Economic
                 Stimulus Payments to Be Issued and Pose a Continuing Risk of
                           False Refunds Being Issued in the Future


We acknowledge that our estimate of false refunds that could be released over the next 5 years
does not account for changes in volumes of false refund returns, average refund amounts,
improvements in the IRS’ processing of false refunds, or future economic conditions. However,
both the number of false returns and the average amount of false refunds has increased 177 and
36 percent, respectively, over the last 3 years. We have no reason to believe that these numbers
will decrease in the near future. As a result, we believe our estimate is valid, and could actually
underestimate the amount of false refunds that could be erroneously issued during this time
period if the trend in false returns and false refunds continues.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                      5
                       Reliance on New Procedures Allowed Some False Economic
                      Stimulus Payments to Be Issued and Pose a Continuing Risk of
                                False Refunds Being Issued in the Future




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Criminal Investigation Division’s Initial Action Plan Was
          Inadequate and Did Not Fully Prevent the Issuance of Stimulus
          Payments Associated With False Returns.....................................................Page 4
          The Implementation of New Procedures Resulted in the Issuance
          of Some Stimulus Payments on False Returns .............................................Page 5
                    Recommendation 1:........................................................Page 8

                    Recommendation 2: .................................................................. Page 9

          Additional Stimulus Payments Could Be Issued on False Returns
          During the 2009 Filing Season .....................................................................Page 9
                    Recommendation 3:........................................................Page 11

          The Criminal Investigation Division Took Action to Identify Potential
          Refund Schemes on Stimulus-Only Returns ................................................Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Synopsis of Account Freezes ................................................Page 19
          Appendix VI – Glossary of Terms................................................................Page 20
          Appendix VII – Management’s Response to the Draft Report.....................Page 22
         Reliance on New Procedures Allowed Some False Economic
        Stimulus Payments to Be Issued and Pose a Continuing Risk of
                  False Refunds Being Issued in the Future




                       Abbreviations

CI               Criminal Investigation
IRS              Internal Revenue Service
PY               Processing Year
STARS            Scheme Tracking and Referral System
TY               Tax Year
                     Reliance on New Procedures Allowed Some False Economic
                    Stimulus Payments to Be Issued and Pose a Continuing Risk of
                              False Refunds Being Issued in the Future




                                               Background

The Economic Stimulus Act of 2008, 1 signed on February 13, 2008, was passed to energize the
national economy. The most significant part of the Act is the individual stimulus payment,
which is a credit for Tax Year (TY) 2008. Overall, the payments were estimated using
information reported on TY 2007 tax returns and were scheduled to be issued in 2008 2 so
individuals could benefit from the payments as soon as possible. Individuals who qualify for a
larger payment as a result of changes between their TY 2007 and TY 2008 returns will receive
the additional payment when they file their TY 2008 returns (generally between January and
April 2009). If individuals received a larger stimulus payment in 2008 than they would have if
the payment had been calculated using information from their TY 2008 returns, they will be
allowed to keep the excess and will not be asked to pay it back. The stimulus payment will not
increase the amount of tax an individual owes or reduce an individual’s refund for TY 2008.
To receive a stimulus payment, individuals must have an income tax liability or at least $3,000 in
qualifying income. Income from wages, tips, and net self-employment earnings as well as
nontaxable combat pay and some Social Security, Veterans disability, and Railroad Retirement
benefits qualifies as eligible income. Individuals must file a
2007 tax return with a valid Social Security Number to
receive the payment.                                                  As of the end of
                                                                        December 2008, the IRS
The legislation required that the Internal Revenue Service          distributed 119.2 million
(IRS) issue payments to taxpayers before                          stimulus payments totaling
December 31, 2008. As of the end of December 2008, the                    $96.3 billion.
Department of the Treasury reported that a total of
119.2 million payments had been distributed totaling $96.3 billion.
Implementing the economic stimulus payment presented two significant challenges for the IRS:
    •    The process for issuing payments had to be implemented at the same time the IRS was
         processing an estimated 140 million individual income tax returns as part of its annual
         filing season. 3
    •    All affected programs and computer systems had to be modified in a relatively short time
         period to satisfy the intent of Congress to issue the payments to individuals as soon as
         possible.


1
  Pub. L. 110-185, 122 Stat. 613.
2
  Unless otherwise noted, all dates in this report are calendar year.
3
  See Appendix VI for a glossary of terms.
                                                                                             Page 1
                   Reliance on New Procedures Allowed Some False Economic
                  Stimulus Payments to Be Issued and Pose a Continuing Risk of
                            False Refunds Being Issued in the Future



The Criminal Investigation (CI) Division, whose responsibility includes detecting and stopping
false claims for refunds on income tax returns, began evaluating the impact of the economic
stimulus payment legislation in January 2008. While the CI Division reflected on best practices
and lessons learned from a similar law passed in 2001, there were a number of differences that
made preparing for this current initiative unique. First, the IRS dealt with an accelerated time
period for issuing the stimulus payments. Second, millions of taxpayers who were usually
exempt from filing a tax return would be required to file a stimulus-only tax return to receive the
stimulus payment.
In 2008, we issued a report that evaluated the IRS’ efforts in planning for the issuance of the
stimulus payments. 4 We reported that although the IRS’ planning for the stimulus payments was
generally sufficient, there were areas where improvements were needed. In that report, we noted
weaknesses in the CI Division’s Action Plan and reported that the CI Division’s Action Plan did
not address the need to develop procedures for stopping stimulus payments relating to certain
TY 2007 false returns for which a determination of fraud was made after the refunds were
issued.
This review was performed at the CI Division’s Office of Refund Crimes in Washington, D.C.,
during the period May through December 2008. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
 Evaluation of Planning Efforts for the Issuance of Economic Stimulus Payments (Reference Number 2008-40-149,
dated July 31, 2008).
                                                                                                      Page 2
                   Reliance on New Procedures Allowed Some False Economic
                  Stimulus Payments to Be Issued and Pose a Continuing Risk of
                            False Refunds Being Issued in the Future




                                    Results of Review

We determined CI Division personnel actively participated in the Service-Wide Executive
Steering Committee meetings throughout the planning process and developed an Action Plan for
key activities within the CI Division’s Questionable Refund Program. In addition, CI Division
management coordinated with officials in the Wage and Investment Division and Modernization
and Information Technology Services organization to coordinate procedural changes and revise
applicable programming to prevent the issuance of stimulus payments associated with false
returns. Further, the CI Division initiated actions that resulted in the identification of potential
refund schemes associated with “stimulus-only” returns filed to obtain the stimulus payment.
However, we determined the Action Plan submitted by the CI Division to the Executive Steering
Committee was not adequate. Specifically, we identified several concerns with the CI Division’s
Action Plan that would not prevent false stimulus payments from being issued on known false
returns. After we discussed these concerns with IRS management, the IRS agreed to take
additional steps to prevent the issuance of false stimulus payments. As a result of these
additional changes, we estimate that at least 12,000 false stimulus payments totaling $7.1 million
were prevented from being issued.
We also determined that the CI Division’s Action Plan generally relied on new procedures to
prevent payments associated with false returns from being issued. In Processing Year
(PY) 2008, the CI Division changed the controls and implemented a temporary freeze to hold the
issuance of potentially false refunds. However, our limited testing identified that
$1.2 million in stimulus payments and $16.3 million in false refunds were inappropriately issued
because the temporary freeze was released due to processing delays or systemic deficiencies.
We previously raised concerns with the effectiveness of the controls designed to prevent false
refunds from being erroneously issued. In our first report evaluating the Questionable Refund
Program, we raised concerns that the programmed expiration for the temporary freeze may not
give the IRS sufficient time to verify refunds. 5 In our most recent report, we reported that the
process for freezing taxpayer accounts was complex and confusing, which resulted in the
erroneous issuance of fraudulent refunds. 6
The amount of erroneously issued stimulus payments that we identified is relatively small in
relation to the total stimulus payments issued. However, we remain concerned that the existing


5
  Actions Have Been Taken to Address Deficiencies in the Questionable Refund Program; However, Many Concerns
Remain, With Millions of Dollars at Risk (Reference Number 2007-10-076, dated May 31, 2007).
6
  An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Season (Reference
Number 2008-10-172, dated September 22, 2008).
                                                                                                      Page 3
                     Reliance on New Procedures Allowed Some False Economic
                    Stimulus Payments to Be Issued and Pose a Continuing Risk of
                              False Refunds Being Issued in the Future



controls pose a risk that false refunds, as well as any stimulus payments associated with potential
future legislation, will be erroneously issued in the 2009 Filing Season (PY 2009) and beyond.
We estimate that approximately $117.6 million 7 in false refunds could be erroneously released
over 5 years due to the expiration of the temporary freeze within the currently established time
periods. Allowing false stimulus payments or false refunds to be issued reduces the dollars in
the United States Treasury, especially in this current economic environment.
Finally, we estimate that more than $138 million in stimulus payments on false returns that were
not issued in 2008 may be at risk of being issued during PY 2009 if false returns for these
taxpayers are filed during 2009. Currently, any stimulus payments not issued in 2008 that are
claimed on potentially false returns filed during 2009 must be referred to the Examination
function for resolution. This could place an extreme burden on the limited resources and other
noncompliance priorities of the Wage and Investment Division during PY 2009. We believe this
high volume of returns, coupled with limited resources and other competing priorities, could
cause the IRS to increase the dollar tolerance of the potentially false stimulus payments referred
to Examination function personnel. As a result, there is an increased risk that some of these
stimulus payments could be issued.

The Criminal Investigation Division’s Initial Action Plan Was
Inadequate and Did Not Fully Prevent the Issuance of Stimulus
Payments Associated With False Returns
In January 2008, the CI Division began looking into the impact of the Economic Stimulus
Payment Act legislation on the Questionable Refund Program. The CI Division developed a
plan for key activities to prevent stimulus payments on known false returns and develop ways to
identify schemes. However, the CI Division’s Action Plan did not adequately ensure that
stimulus payments were not issued on known false returns.
For example, the CI Division’s plan did not have procedures to stop stimulus payments on
returns determined to be false after the refund was issued. These accounts would not have any
freeze input to indicate a potentially fraudulent return. In addition, the CI Division did not
consider how to prevent stimulus payments associated with those false returns that had been
resolved (and the false refund properly stopped) through the Accounts Management organization
or Examination function processes. For these returns, the accounts would reflect a zero balance,
thereby causing the civil freeze control to systemically release. Without any freeze controls
present on these accounts, the stimulus payment would be systemically issued to the taxpayer.
After bringing these concerns to management’s attention, the IRS immediately took corrective
action and implemented procedures to prevent the issuance of stimulus payments on these

7
 This estimate is based on current dollar values and does not account for changes in volumes of false refund returns,
average refund amounts, improvements in the IRS’ processing of false refunds, or future economic conditions.
                                                                                                             Page 4
                     Reliance on New Procedures Allowed Some False Economic
                    Stimulus Payments to Be Issued and Pose a Continuing Risk of
                              False Refunds Being Issued in the Future



returns. Specifically, Office of Refund Crimes management issued a memorandum to its staff
advising them to freeze accounts that have been verified as false after the refunds were issued to
prevent the stimulus payment from issuing. In addition, the IRS developed a Master File
program to identify and stop stimulus payments for those returns where the false refund was
stopped and the account adjusted before the stimulus payment posted. As a result of these
changes, we conservatively estimate 8 that about 12,000 stimulus payments totaling $7.1 million
were prevented from being issued.

The Implementation of New Procedures Resulted in the Issuance of
Some Stimulus Payments on False Returns
In PY 2008, the CI Division implemented new controls to prevent the issuance of refunds
associated with false returns. 9 These new controls relied on a temporary freeze to hold the
issuance of potentially false refunds. We previously raised concerns with the effectiveness of
these controls in two prior audit reports. However, our review of operational documents
determined that the CI Division believed that these new controls would prevent the issuance of
any stimulus payments associated with false returns.
The temporary freeze is programmed to expire within a certain time period. Thus, if a false
refund account is not timely worked or referred for resolution, the account is at risk of having the
refund erroneously issued because the temporary freeze expires. This process significantly
differs from PY 2007, when the CI Division used a criminal freeze to prevent the issuance of
false refunds. Generally, CI Division personnel must manually release the criminal freeze (i.e.,
the criminal freeze does not systemically release).
As previously discussed, we identified two situations in which the CI Division’s new control
process would not have prevented the stimulus payments from issuing. In addition, we identified
other systemic deficiencies or errors that resulted in the erroneous issuance of stimulus payments
due to the expiration of the temporary freeze.
We reviewed 35 accounts in which the CI Division verified the returns were false and
determined that the temporary freeze automatically released on 13 accounts resulting in the
issuance of $6,900 in false stimulus payments and $49,973 in false refunds. The high error rate
(37 percent) on this sample suggested that this problem might be more widespread than the CI
Division originally thought. Therefore, we obtained account information for approximately
173,000 returns that the CI Division determined were false (as of June 3, 2008) for which a
stimulus payment had been generated. Our analyses identified 3,286 accounts in which the

8
  We based our estimate on the data we received from the Office of Refund Crimes dated June 3, 2008, which
contained 172,867 false refund returns. Since this data file does not represent returns identified for the whole
processing year, the estimated revenue protected amount could be higher.
9
  See Appendix V for a synopsis of account freezes.
                                                                                                               Page 5
                 Reliance on New Procedures Allowed Some False Economic
                Stimulus Payments to Be Issued and Pose a Continuing Risk of
                          False Refunds Being Issued in the Future



temporary freeze expired resulting in the issuance of $16.3 million in false refunds and 2,071
false stimulus payments totaling $1.2 million.
We identified several factors that allowed these false payments to be issued. Specifically:
   •   The CI Division implemented an automated referral process in PY 2008 to systemically
       transfer verified false returns from the Electronic Fraud Detection System to the Scheme
       Tracking and Referral System (STARS) if they are not manually placed in STARS for
       7 or more days after being verified as false. This process is intended to speed up the
       movement of returns to the Examination function or Accounts Management organization
       before the temporary freeze holding the false refund expires.
       However, as of June 3, 2008, we identified 1,482 false returns that were not timely
       transferred into the STARS. This delay increases the risk that the temporary freeze
       designed to prevent issuance of the false stimulus payments will expire. We determined
       these returns either were not entered into or were not in the STARS for an average of
       109 days. We identified 746 stimulus payments totaling $449,000 that were issued
       because the temporary freeze expired.
   •   Once the false returns are entered into the STARS, the Electronic Fraud Detection
       System is programmed to identify returns in the STARS eligible for referral to the
       Examination function or the Accounts Management organization, transfer referral
       information to the Dependent Database for filtering and initiation of Examination
       function and Accounts Management organization computer processes, and automatically
       update the STARS Return Dispositions returns referred for resolution. This process is
       dependent upon and begins when the false returns are entered into the STARS and
       assigned a disposition code. However, we identified 14,015 false returns from the
       STARS that did not have a disposition code. These returns had been entered in the
       STARS an average of 47 days and a maximum of 140 days at the time we reviewed them.
       We identified 4,560 false returns in which almost $2.8 million false stimulus payments
       were issued.
We brought our concerns to the attention of CI Division management and asked for an
explanation of why this occurred and what procedures or controls were developed to ensure
timely updates to the STARS. According to Office of Refund Crimes management, there are
various points in the automated referral process that could impact the status of the false refund.
Management believed some of the more common breakdowns that occurred and caused the
issuance of false refunds and stimulus payments included human error and inventory backlog. In
addition, we believe the lack of any quality review testing by CI Division management of the
new controls and procedures implemented in PY 2008 impacted management’s ability to identify
control weaknesses.



                                                                                              Page 6
                     Reliance on New Procedures Allowed Some False Economic
                    Stimulus Payments to Be Issued and Pose a Continuing Risk of
                              False Refunds Being Issued in the Future



This is now the third processing year we raised concerns with the effectiveness of the controls
designed to prevent false refunds from erroneously issuing. In our first report evaluating the
Questionable Refund Program, we raised concerns that the programmed expiration for the
temporary freeze may not give the IRS sufficient time to verify refunds. 10 In our most recent
report, we reported that the process for freezing taxpayer accounts was complex and confusing,
which resulted in the erroneous issuance of false refunds. 11 In response to those
recommendations, CI Division management indicated it would review 2007 data to obtain more
current time periods for completing verification, and stated the new process implemented in
PY 2008 would prevent false refunds from issuance until all issues were resolved by IRS.
However, we do not believe these actions have been effective. If CI Division management does
not take adequate steps to monitor the false refund inventory and ensure false refund returns are
referred for resolution before the temporary freeze expires, we estimate about $117.6 million 12 in
false refunds could be erroneously released over the next 5 years.
Office of Refund Crimes management recently advised that it has taken proactive steps to
monitor and refine the automated referral process to resolve these issues, such as establishing
regular and periodic calls to review problems and issues with workload-related automation and
developing new monitoring reports to track referrals for PY 2009. Additionally, CI Division
management stated a business processing improvement team has been established to monitor
workload transfer processes to identify issues and recommend solutions, but did not provide any
specific details on how the automated referral process will be monitored to identify potential
delays. Further, the Office of Refund Crimes requested that the automated transfer process of
returns from the Electronic Fraud Detection System to the STARS be extended to 14 days for
PY 2009. In addition, a requirement has been added to the Electronic Fraud Detection System to
give the CI Division flexibility to change the 14 days during the filing season if evaluation of the
process shows it is necessary. However, we do not believe extending the time to transfer returns
into the STARS will reduce the likelihood that the temporary freeze will expire prior to issuance
of false refunds. Because the Office of Refund Crimes has only a certain time period to verify
and refer the cases, extending the automatic referral time only shortens the available time for
completing the referral process before the temporary freeze expires.
We remain concerned that if these weaknesses do not get corrected for the next filing season
(PY 2009), additional false refunds will be at risk of being erroneously issued. Further, with the
uncertainty surrounding our current economic conditions, several Congressmen have recently
discussed the need for another stimulus package. While legislation had not been enacted as of

10
   Actions Have Been Taken to Address Deficiencies in the Questionable Refund Program; However, Many
Concerns Remain, With Millions of Dollars at Risk (Reference Number 2007-10-076, dated May 31, 2007).
11
   An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Seasons
(Reference Number 2008-10-172, dated September 22, 2008).
12
   This estimate is based on current dollar values and does not account for changes in volumes of false refund
returns, average refund amounts, and future economic conditions.
                                                                                                             Page 7
                   Reliance on New Procedures Allowed Some False Economic
                  Stimulus Payments to Be Issued and Pose a Continuing Risk of
                            False Refunds Being Issued in the Future



the completion of our fieldwork, it is a possibility. Therefore, the IRS needs to address the
concerns we identified in this report and ensure that effective controls are established to prevent
the erroneous issuance of refunds and stimulus payments associated with false returns.

Recommendations
The Chief, CI Division, should:
Recommendation 1: Extend the time period for the release of the temporary freeze on
taxpayer accounts to provide CI Division personnel more time to verify potentially false returns
and prevent the issuance of false refunds.
        Management’s Response: IRS management disagreed with this recommendation,
        stating they responded to this same recommendation in our prior report. 13 The prior,
        manually intensive process was replaced for PY 2008 with an automated, streamlined
        process that negates the need for manual intervention in placing controls on a return once
        it has been verified as false. IRS management stated several issues were identified early
        in the processing year and they took immediate action, making the necessary adjustments
        to ensure the workflow continued uninterrupted and to prevent the issuance of fraudulent
        refunds. In addition, other freeze conditions are used to hold the refund while the
        automated referral process is completed. The CI Division continues to monitor and has
        taken proactive measures to ensure that procedures are in place to hold the refund until all
        issues are resolved.
        Office of Audit Comment: We previously reported that the temporary freeze may not
        give the IRS sufficient time to verify the refunds, and the freeze process used by the CI
        Division was complex and confusing. In response to these findings, the CI Division
        indicated it would review data to obtain more current information pertaining to the wage
        verification process and implemented new processes in PY 2008 that would prevent false
        refunds from issuance until all issues were resolved by the IRS. However, in spite of the
        IRS’ new automated process and other freeze conditions designed to hold the refund, we
        identified instances where false refunds were erroneously issued due to the expiration of
        the temporary freeze within the established time periods as well as control weaknesses in
        the CI Division’s processes. If the IRS does not take corrective actions, the IRS is still at
        risk of allowing false refunds to be issued. As such, we remain concerned that the
        programmed expiration for the temporary freeze may not give the IRS sufficient time to
        verify wages and refer false refund returns for resolution.




13
  An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Seasons
(Reference Number 2008-10-172, dated September 22, 2008).
                                                                                                       Page 8
                  Reliance on New Procedures Allowed Some False Economic
                 Stimulus Payments to Be Issued and Pose a Continuing Risk of
                           False Refunds Being Issued in the Future



Recommendation 2: Establish a quality review process that will identify any false returns
that are not automatically transferred to the STARS within the required time period. In addition,
the CI Division should establish a process to identify false returns within the STARS that are not
timely referred to the Accounts Management organization or the Examination function for
resolution.
       Management’s Response: The IRS disagreed with this recommendation, stating that
       the Office of Refund Crimes has always taken and continues to take proactive steps to
       monitor and refine processes to resolve issues. In FY 2008, system enhancements were
       implemented to automate the referral process and a Business Processing Improvement
       Team was established to monitor workload transfer processes, identify issues, and
       implement solutions. IRS management cited the following actions that have been taken:
       1) established regular calls with representatives from all affected areas to review
       problems and issues; 2) developed new reports to track referrals for use by the CI
       Division, Accounts Management organization, and Examination function management;
       3) used the STARS data perfection process to improve quality and accuracy of verified
       false returns prior to the referral; 4) extended the STARS auto-push delay; and
       5) identified reasons for referral rejects, implemented revised conditions to reduce reject
       volumes, and developed streamlined procedures for reject resolution.
       Office of Audit Comment: While we believe some of the actions taken by the CI
       Division could be an improvement, these actions will not be implemented until PY 2009.
       As a result, we cannot comment on their effectiveness. If the IRS does not take the
       additional corrective actions, the IRS is still at risk of allowing false refunds to be issued.

Additional Stimulus Payments Could Be Issued on False Returns
During the 2009 Filing Season
Congress has mandated that no advance stimulus payment can be issued after
December 31, 2008. However, taxpayers may be eligible to receive the payment when they file
their TY 2008 tax return in 2009 if they have not received their stimulus payment by
December 31, 2008. If the tax return filed by the taxpayer is determined to be potentially false
by the IRS and also has a potential stimulus payment that has not already been paid to the
taxpayer, the return will be transferred to the IRS Examination function for resolution. We
believe the potential increase in workload for the Examination function could be unmanageable
and increases the risk that an estimated 229,000 false returns claiming $138.8 million in stimulus
payments could be erroneously issued during PY 2009.
Current plans call for the IRS to automatically calculate a stimulus payment on the
2008 Individual Income Tax Return if the taxpayer is eligible and does not claim a stimulus
credit, or if the taxpayer requests that the IRS compute the credit. The IRS will determine
eligibility, calculate the proper credit, subtract any credit issued in 2008, and include the balance

                                                                                               Page 9
                      Reliance on New Procedures Allowed Some False Economic
                     Stimulus Payments to Be Issued and Pose a Continuing Risk of
                               False Refunds Being Issued in the Future



as a refundable credit with the refund. 14 Under current procedures, all questionable returns with
a refundable credit must be sent to the Examination function so an assessment can be made
whether to increase the tax. Since Congress has declared that the recovery rebate should be
treated as a refundable credit, virtually every false return filed during 2009 could claim or
“be entitled” to the recovery rebate credit and must be referred to the Examination function for
resolution.
We identified stimulus payments totaling $94.3 million that were frozen or had not posted to the
individual’s account as of June 3, 2008. We estimate that more than 229,000 stimulus payments
totaling $138.8 million could be paid if or when these returns are filed in 2009. This could place
an extreme burden on the limited resources and other noncompliance priorities of the Wage and
Investment Division during PY 2009. As of September 29, 2008, the CI Division referred almost
140,000 returns, with 81,000 returns referred to the Accounts Management organization and
59,000 returns referred to the Examination function. Processing false tax returns with recovery
rebate credits could almost quadruple the workload of the Examination function during PY 2009
because the false returns would have to be sent to the Examination function instead of the
Accounts Management organization.
We believe this increased workload, coupled with limited resources and other competing
priorities, could cause the IRS to increase the dollar threshold of the potentially false returns
referred to Examination function personnel. Prior history has shown that the IRS has raised
tolerances to address workload-related concerns. 15 We previously recommended that the IRS
initiate a legislative proposal to address the statutory notice of deficiency issue as it relates to
false refunds; however, little progress has been made. Unless and until the IRS takes action on
this issue, the CI Division and the IRS may continue to find it necessary to raise tolerances for
workload management. This could have the unfortunate consequence of allowing millions of
dollars of false refunds and false stimulus payments to be issued in 2009 and result in the
continued growth of potentially false refund returns and refunds that will go undetected.
Unfortunately, we believe it is too late for any legislative change to address the processing of
false recovery rebate credits during PY 2009. However, as mentioned, the IRS plans to calculate
the rebate recovery credit on returns in which the taxpayer does not claim it. For the returns in
which the taxpayer did not initially claim the credit, we do not know if the IRS can subsequently
deny this credit without having to issue a statutory notice of deficiency. If this is possible, the
CI Division could refer these returns directly to the Accounts Management organization for
resolution (rather than the Examination function). This would eliminate the requirement for the
issuance of a statutory notice of deficiency, as the IRS could process the return as containing a
math error.

14
  A credit is refundable if the taxpayer will receive a refund of the credit even if they have no tax liability.
15
  An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Seasons
(Reference Number 2008-10-172, dated September 22, 2008).
                                                                                                                   Page 10
                  Reliance on New Procedures Allowed Some False Economic

                 Stimulus Payments to Be Issued and Pose a Continuing Risk of

                           False Refunds Being Issued in the Future




Recommendation
Recommendation 3: The Deputy Commissioner for Services and Enforcement should seek a
Counsel opinion to determine whether a rebate recovery credit calculated by the IRS requires the
issuance of a statutory notice of deficiency.
        Management's Response: The IRS agreed with this recommendation. IRS
        management stated Counsel has provided the IRS with an informal opinion; however, the
        CI Division will request a formal written opinion from Chief Counsel.

The Criminal Investigation Division Took Action to Identify Potential
Refund Schemes on Stimulus-Only Returns
As previously discussed, taxpayers who are not required to file a tax return or do not owe tax are
eligible to receive the stimulus payment if they have at least $3,000 in qualifying income. This
could include income from Social Security or Veteran's Disability benefits. These taxpayers
were asked to file a return and write "Stimulus Return" on the tax return.
The CI Division prepared an Action Plan that called for them to explore alternatives to identify
the release of potentially false payments associated with stimulus returns filed for the sole
purpose of obtaining the payment. As part of this plan, the CI Division developed a series of
queries that were run against the Electronic Fraud Detection System. As a result, the CI Division
identified eight schemes;/'                                                   Iand four subject
criminal investigations were initiated.
 We conducted our own analysis to identify potential schemes involving stimulus-only returns.
 Specifically, we obtained an extract from the Master File as of April 9, 2008, and determined
 that 936,374 stimulus-only returns were filed. Subsequent analysis determined that
 135,045 taxpayers requested their stimulus payments to be deposited directly into a bank
 account. We conducted further analysis of these accQWl~andidentified a high-risk trend
 involving excessive numbers of paymentJ' ..                    J We found 14 bank accounts that
 would each receive more than 20 stimulus payments, including l~_._  . _.__.__.. .            ~
,                        We referred this information to Office of Refund Crimes management
and they advised'
 1
1                                                    I The other accounts appeared to    e
legitimate returns or did not have enough payments to warrant additional investigations.




                                                                                          Page 11
                  Reliance on New Procedures Allowed Some False Economic
                 Stimulus Payments to Be Issued and Pose a Continuing Risk of
                           False Refunds Being Issued in the Future



                                                                                     Appendix I

         Detailed Objective, Scope, and Methodology

 The overall objective was to evaluate the effectiveness of the CI Division’s actions to prevent the
 issuance of economic stimulus payments for tax returns identified by the IRS as claiming false
 refunds. Through assessment of the electronic data sources used in this audit, we concluded
 some of the data were of undetermined reliability. However, answering the audit’s objective
 would not be possible if the data were not used, and it was our opinion that using the data would
 not weaken the analysis or lead to an incorrect or unintentional message. Additional steps to
 determine data reliability prior to testing were not feasible. For samples selected, the electronic
 data were validated to the Master File. To accomplish our objective, we:
I.      Evaluated the actions taken to identify and stop economic stimulus payments on tax
        returns determined false after the IRS issued the refund, but before the stimulus payment
        was scheduled for issuance.
        A. Interviewed CI Division management to determine any actions planned or taken to
           stop stimulus payments associated with tax returns determined false after the IRS
           issued the refund.
        B. Obtained the CI Division’s procedures for processing false returns during PY 2008,
           including procedures for stopping stimulus payments from being issued on false
           returns.
        C. Determined whether the CI Division conducted any analysis to identify the potential
           volume and amount of stimulus payments that might be issued based on false refund
           returns.
        D. Obtained statistics that show the number and refund amount of false refunds
           identified and stopped as of June 2, 2008, and September 29, 2008.
        E. Obtained the following data extracts to conduct various audit tests:
            1. Obtained an extract from the STARS as of June 3, 2008, that contained
               229,238 false returns. We identified 194,191 Tax Year 2007 returns with a valid
               Social Security Number.
            2. Obtained an extract from the Electronic Fraud Detection System as of
               June 7, 2008, and identified 248,565 returns determined false that should have
               been entered into the STARS.



                                                                                            Page 12
                Reliance on New Procedures Allowed Some False Economic
               Stimulus Payments to Be Issued and Pose a Continuing Risk of
                         False Refunds Being Issued in the Future



         3. Obtained a Master File extract that contained about 104.6 million stimulus
            payments that the IRS authorized for issuance as of July 17, 2008.
         4. Compared a Master File extract from Step I.E.3. of stimulus payments the IRS
            determined the taxpayer would be eligible to receive to the extract of the
            194,191 false returns in Step I.E.1. and identified 172,867 false returns with
            approximately $104.6 million in stimulus payments.
         5. Obtained a Master File extract that identified various account transactions, freeze
            conditions, and other data for the 172,867 false returns identified in Step I.E.4.
      F. Compared the Electronic Fraud Detection System file obtained in Step I.E.2. to the
         STARS data obtained in Step I.E.1. and identified 9,901 returns with a 2007 Tax Year
         in the Electronic Fraud Detection System that were not in the STARS. We further
         determined that 1,482 returns were verified as false before May 1, 2008.
         1. Provided a list of the 1,482 returns to the CI Division to determine the current
            status of the returns and why they were not input to the STARS.
         2. Compared the 1,482 returns in Step I.F.1. to the file of 172,867 stimulus payments
            issued from Step I.E.4. to determine the number and amount of stimulus payments
            paid.
      G. Conducted analyses to determine the amount of stimulus payments that would have
         been paid on false returns because the IRS did not originally plan to freeze these
         accounts.
         1. Identified 24,980 false returns in which the CI Division indicated the refunds
            were issued from the STARS extract as of June 3, 2008, that contained
            229,238 false returns.
         2. Analyzed Master File data for the 24,980 false returns where the refunds were
            issued and identified those returns where the stimulus payments were stopped due
            to the placement of criminal freezes.
II.   Evaluated the effectiveness of plans to identify and stop unissued stimulus payments for
      tax returns in which the IRS stopped the false refund and referred the account to either
      the Accounts Management organization or Examination function.
      A. Interviewed CI Division management to determine whether any actions were planned
         or taken to stop stimulus payments associated with tax returns determined false with
         refunds stopped by the IRS.
      B. Obtained CI Division statistics that show the number and refund amount of false
         refunds identified and sent to the Accounts Management organization or Examination
         function for action as of June 2 and September 29, 2008.

                                                                                         Page 13
                 Reliance on New Procedures Allowed Some False Economic
                Stimulus Payments to Be Issued and Pose a Continuing Risk of
                          False Refunds Being Issued in the Future



       C. Obtained the latest version of the Master File programming documentation and
          determined the criteria used for stopping the stimulus payments on those accounts in
          which the IRS stopped the false refund and adjusted the account.
       D. Obtained an extract from the STARS using IRS criteria to identify false returns
          identified by the CI Division and sent to the Accounts Management organization or
          Examination function.
           1. Identified those accounts with adjustment action pending at the time of the
              extract. We selected a judgmental sample of 35 cases out of a population of
              17,809 that the CI Division referred for adjustment action and determined whether
              the IRS properly stopped the stimulus payment. We used a judgmental sample
              because we did not intend to project our results to the universe.
           2. Determined the amount of stimulus payments stopped using this procedure.
III.   Determined whether the CI Division had plans to identify schemes on stimulus-only tax
       returns.
       A. Interviewed CI Division management to determine whether any actions were planned
          or taken to identify false stimulus payments associated with stimulus-only tax returns.
       B. Obtained information on the results of the CI Division’s identification of potential
          refund schemes involving stimulus-only returns.
       C. Obtained a Master File extract of 936,374 stimulus-only returns filed as of
          April 9, 2008, and conducted queries to identity common characteristics.
           1. Referred to the CI Division a list of 14 bank accounts in which more than
              20 stimulus payments were scheduled to be deposited in the same account.
           2. Followed up with the CI Division to determine the status of the 14 accounts that
              we identified in Step III.C.1.




                                                                                          Page 14
                Reliance on New Procedures Allowed Some False Economic
               Stimulus Payments to Be Issued and Pose a Continuing Risk of
                         False Refunds Being Issued in the Future



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Diana Tengesdal, Audit Manager
Michael J. Hillenbrand, Lead Auditor
Jeff K. Jones, Senior Auditor
Joe Smith, Senior Auditor
Robert J. Carpenter, Information Technology Specialist




                                                                                  Page 15
                Reliance on New Procedures Allowed Some False Economic
               Stimulus Payments to Be Issued and Pose a Continuing Risk of
                         False Refunds Being Issued in the Future



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation Division SE:CI
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Operations Policy and Support, Criminal Investigation Division SE:CI:OPS
Director, Refund Crimes, Criminal Investigation Division SE:CI:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Wage and Investment Division SE:W
       Chief, Criminal Investigation Division SE:CI:S:PS




                                                                                 Page 16
                  Reliance on New Procedures Allowed Some False Economic
                 Stimulus Payments to Be Issued and Pose a Continuing Risk of
                           False Refunds Being Issued in the Future



                                                                                  Appendix IV


                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Revenue Protection – Actual; $7.1 million in economic stimulus payments that were
    prevented from being issued on false returns as a result of the IRS making computer program
    changes (see page 4).

Methodology Used to Measure the Reported Benefit:

We obtained data from the Master File on 172,867 tax returns identified as false by the
CI Division, as of June 3, 2008, and for which a stimulus payment was generated. We analyzed
this data to determine the amount of stimulus payments that were prevented from being issued as
a result of additional programming procedures instituted by the CI Division based on our work.
Based on our earlier inquiries, the CI Division implemented procedures to address the following
two situations that may have left the accounts vulnerable to erroneous issuance of stimulus
payments:

    •   A refund claim was not determined to be false until after that refund was issued. In a
        majority of these types of cases, the CI Division would no longer place a freeze on the
        account. Without a freeze, the stimulus payment would be issued.

    •   A refund claim is verified as false and the tax return is referred to either the Accounts
        Management organization or the Examination function for contact and further
        verification with the taxpayer. If these civil functions complete their verification and
        adjust the account before the stimulus payment is generated then the civil freeze will be
        released. This allows the stimulus payment to be issued.

As a result of our analysis, we estimate that 6,600 stimulus payments totaling $4.1 million were
prevented from issuance due to the addition of the criminal freeze after the false refund was
issued. In addition, we estimate that 5,440 stimulus payments totaling $3 million were prevented
from issuance due to the IRS’ subsequent programming.

                                                                                           Page 17
                     Reliance on New Procedures Allowed Some False Economic
                    Stimulus Payments to Be Issued and Pose a Continuing Risk of
                              False Refunds Being Issued in the Future



Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $118.8 million in false refunds and economic stimulus
    payments issued because the temporary freeze expired (see page 5).

Methodology Used to Measure the Reported Benefit:
We obtained a Master File extract of 172,867 false Tax Year 2007 returns identified by the
CI Division as of June 3, 2008, that contained a stimulus payment. As of October 2008, we
identified 3,286 accounts in which the temporary freeze expired as programmed resulting in the
issuance of $16.3 million in false refunds and 2,071 stimulus payments totaling $1.2 million. 1
Although the amount of erroneously issued false refunds and stimulus payments we identified is
relatively small in relation to the total false refunds stopped ($1.5 billion) and legitimate stimulus
payments issued ($96.3 billion), we remain concerned that the procedures pose a risk that false
refunds will be issued in the future.
The CI Division indicated that it continues to make improvements to this process. However, this
is the third year we have reported this issue and the CI Division’s corrective actions have not
been effective. If the CI Division does not take effective action to implement changes to the way
it processes and freezes false refunds, we estimate that over $117.6 million 2 in false refunds
could be erroneously released over 5 years due to the expiration of the temporary freeze.
We calculated this amount as follows: Our analysis of 172,867 false Tax Year 2007 returns
identified 3,286 returns where the refund was issued when the freeze expired. This was about
1.4 percent of all false returns in STARS as of June 3, 2008. As of September 29, 2008, the
CI Division reported that it had identified 337,809 false returns. We applied the 1.4 percent to
the total of 337,809 false returns and arrived at a potential of 4,729 returns in which the freeze
may have expired during PY 2008. We multiplied the 4,729 returns by the average refund
($4,974) erroneously released ($23,522,046). We then multiplied that result by 5 years
($117,610,230). We did not include a 5-year projection for the amount of stimulus payments
issued, as this was a one-time event. The outcome measure of $118.8 million includes
$1.2 million in stimulus payments actually released and a 5-year estimate of the false refunds
that could be released.




1
  This is an estimate of the amount of refunds released by the IRS’ computer system. Our limited testing showed
that some of these refunds may be recovered because they were undeliverable or the bank was suspicious and
notified the IRS who then cancelled the refund. We are unable to provide an estimate of this amount.
2
  This estimate is based on current dollar values and does not account for changes in volumes of false refund returns,
average refund amounts, improvements in the IRS’ processing of false refunds, or future economic conditions.
                                                                                                            Page 18
                     Reliance on New Procedures Allowed Some False Economic
                    Stimulus Payments to Be Issued and Pose a Continuing Risk of
                              False Refunds Being Issued in the Future



                                                                                                   Appendix V

                           Synopsis of Account Freezes

 Processing          Temporary Freeze                Permanent Criminal Freeze                   Civil Freeze
   Year

  2005 and     Used if additional time was         Used when a refund was               Generally only used if the
   Earlier     needed to determine whether the     determined false. Generally          CI Division referred certain
               refund was false. Freeze            current and future years’ accounts   returns during a limited
               generally had to be released        were frozen.                         verification process.
               manually.

    2006       Used if additional time was         Used when a refund was               Placed on an account when
               needed to verify a highly           determined false. However, only      the return is referred to either
               suspicious refund return. This      the account with the false refund    Accounts Management or
               freeze had to be resolved within    was frozen (not future years).       Examination for resolution.
               a certain time period; otherwise,   Freeze was generally released
               the false refund would be           when the civil freeze was placed
               automatically released.             on the account.




    2007       Used if additional time was         Used when a refund was               Placed on an account when
               needed to verify a highly           determined false. However, only      the return is referred to either
               suspicious refund return. This      the account with the false refund    the Accounts Management
               freeze had to be resolved within    was frozen (not future years).       organization or Examination
               a certain time period; otherwise,   Freeze was generally released        function for resolution.
               the false refund would be           when the civil freeze was placed
               automatically released.             on the account.

    2008       The CI Division relied on the       The use of this freeze was limited   Placed on the account before
               temporary freeze to prevent         to special circumstances.            the temporary freeze expires;
               issuance of false refunds while                                          otherwise, the false refund
               returns were being referred to                                           will be issued.
               the Accounts Management
               organization or Examination
               function for resolution. This
               freeze was programmed to
               release within a certain time
               period.

Source: Treasury Inspector General for Tax Administration analysis of Office of Refund Crimes’ referral transfer
procedures.



                                                                                                              Page 19
                  Reliance on New Procedures Allowed Some False Economic
                 Stimulus Payments to Be Issued and Pose a Continuing Risk of
                           False Refunds Being Issued in the Future



                                                                                   Appendix VI

                                 Glossary of Terms

Accounts Management Organization – The organization within the Wage and Investment
Division responsible for answering taxpayer tax law/account inquiries and adjusting tax
accounts. In addition, it is responsible for providing taxpayers with information on the status of
their returns/refunds and for resolving the majority of issues and questions to settle their
accounts.
Dependent Database – A system that identifies and selects for examination taxpayer returns
with possible erroneous Earned Income Tax Credit claims. During initial processing, the
Dependent Database Scoring Program analyzes tax returns that have claimed at least one Earned
Income Tax Credit qualifying child or dependent child. Using data from several sources, it
analyzes each tax return for criteria that indicate the taxpayer might not be eligible for the Earned
Income Tax Credit and assigns a numeric value to each criterion. The Dependent Database then
produces an overall score for the return. Based on available resources to conduct examinations,
the IRS selects certain types and quantities of returns for pre-refund examinations to verify the
taxpayers’ eligibility for the Earned Income Tax Credit.
Electronic Fraud Detection System – A computer system, developed in 1994 and implemented
in 1996, that automates the identification output for potentially false electronically filed tax
returns, increases data available for analysis, and assists in the development of information
relating to paper and electronically filed schemes detected by the CI Division.
Filing Season – The period between January and mid-April when most individual income tax
returns are filed.
Fraud Detection Center – The function responsible for identifying and detecting refund fraud,
preventing the issuance of false refunds, and providing support for the CI Division field offices.
Freeze – Under certain conditions, the IRS computer system will “freeze” the account.
Depending on the reason, different freezes may prevent certain actions, such as processing a
refund, from taking place. In this report, we are referring to three general types of freezes: a
temporary freeze, a permanent criminal freeze, and a civil freeze. See Appendix V for a
description of these freezes and how they are used on accounts with false refunds.
Master File – The IRS database that stores various types of taxpayer account information. The
database includes individual, business, and employee plans and exempt organizations data.
Processing Year – The year in which taxpayers file their returns with the IRS. For example,
most Tax Year 2006 returns were filed in Processing Year 2007.

                                                                                            Page 20
                 Reliance on New Procedures Allowed Some False Economic
                Stimulus Payments to Be Issued and Pose a Continuing Risk of
                          False Refunds Being Issued in the Future



Questionable Refund Program – A nationwide program established to detect and stop false
claims for refunds on income tax returns.
Scheme – Can include only one return but generally includes numerous returns. In addition,
many small false refunds that do not have common characteristics may be placed in a “dump”
scheme.
Scheme Tracking and Referral System – The system of records maintained at each Fraud
Detection Center for Questionable Refund Program and Return Preparer Program schemes. It
was designed to store information, for multiple processing years, that is used for tracking and
historical purposes.




                                                                                          Page 21
     Reliance on New Procedures Allowed Some False Economic
    Stimulus Payments to Be Issued and Pose a Continuing Risk of
              False Refunds Being Issued in the Future



                                                    Appendix VII

Management’s Response to the Draft Report




                                                           Page 22
 Reliance on New Procedures Allowed Some False Economic
Stimulus Payments to Be Issued and Pose a Continuing Risk of
          False Refunds Being Issued in the Future




                                                       Page 23
 Reliance on New Procedures Allowed Some False Economic
Stimulus Payments to Be Issued and Pose a Continuing Risk of
          False Refunds Being Issued in the Future




                                                       Page 24
 Reliance on New Procedures Allowed Some False Economic
Stimulus Payments to Be Issued and Pose a Continuing Risk of
          False Refunds Being Issued in the Future




                                                       Page 25
